CERTIFICATE OF SERVICE
NO. TBD
Leon Oscar Ramirez, Jr. Et Al.
Petitioner(s)
v.
ConocoPhillips Company, Et Al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the LEON
OSCAR RAMIREZ, JR. ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Michael V. Powell
Locke Lord LLP
2200 Ross Ave., Suite 2200
Dallas, TX 75201
(214) 740 8000
mpowell@lockelord.com
Counsel for ConocoPhillips Company

Macey Reasoner Stokes
Baker Botts
910 Louisiana St.
Houston, TX 77002
(713) 229 1241
macey.stokes@bakerbotts.com
Counsel for ConocoPhillips Company and The R.C.
Ramirez Living Trust, successor in interest to Rodolfo
C. Ramirez, Deceased and El Milagro Minerals, Ltd.
and The Ileana Ramirez Testamentary Trust,
successor in interest to the Ileana Ramirez, Deceased

Jessee R. Castillo
Castillo Snyder
One Riverwalk Place
700 N. St. Mary's St., Suite 405
San Antonio, TX 78205
(210) 630-4200
jcastillo@casnlaw.com
Counsel for The R.C. Ramirez Living Trust, successor in interest to
Rodolfo C. Ramirez, Deceased and El Milagro Minerals, Ltd. and The
Ileana Ramirez Testamentary Trust, successor in interest to the Ileana
Ramirez, Deceased

Lucas DeDeus

August 26, 2020
SCP Tracking: Alarcon-1302 Washington Street-Cover White

